2311 Douglas Street
Omaha, Nebraska 68102-1214

 

; E-Mail Address:
Le ga 1B pels contact@cocklelegalbriefs.com

1-800-225-6964 2 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-873

GEOPHYSICAL SERVICE, INCORPORATED,
Petitioner,

v.
TGS-NOPEC GEOPHYSICAL COMPANY,
Respondent.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 13th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the AMICUS CURIAE BRIEF IN SUPPORT OF PETITIONER in the

above entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to
the following:

SEE ATTACHED

To be filed for:

THOMAS MADDREY DARREN J. QUINN
Counsel of Record LAW OFFICES OF
MADDREY PLLC DARREN J. QUINN

901 Main St., Suite 6530
Dallas, Texas 75202

Tel: (214) 702-9862
tbm@maddreypllc.com

Counsel for Amicus American

12702 Via Cortina, Suite 105
Del Mar, California 92014
Tel: (858) 509-9401
dq@dqlaw.com

Counsel for Amici American

Society of Media Photographic Artists
Photographers, Inc. and Association of Real
Estate Photographers

Subscribed and sworn to before me this 13th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary : ‘
Serna, , Collie Ouidah,
My Commission Expires Nov 24, 2020 Gi

Notary Public Affiant 39504

 

 
 

Attorneys for Petitioner

Don Cruse Law Office of Don Cruse 512-853-9100
Counsel of Record 1108 Lavaca St.
Suite 110-436
Austin, TX 78701

don.cruse@texasappellate.com

Party name: Geophysical Service, Incorporated

 

 

Attorneys for Respondent

Jonathan Saul Franklin Norton Rose Fulbright US, LLP 202-662-0466
Counsel of Record 799 9th Street NW
Suite 1000

Washington, DC 20001

jonathan. franklin@nortonrosefulbright.com

Party name: TGS-NOPEC Geophysical Company

 

 
